                     AUDIT REPORT

                  Follow-up Audit of the Nuclear Regulatory
                       Commission’s Decommissioning
                              Fund Program

                       OIG-06-A-07     February 6, 2006




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                         February 6, 2006




MEMORANDUM TO:              Luis A. Reyes
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum/RA/
                            Assistant Inspector General for Audits


SUBJECT:                    FOLLOW-UP AUDIT OF THE NUCLEAR
                            REGULATORY COMMISSION’S
                            DECOMMISSIONING FUND PROGRAM
                            (OIG-06-A-07)

Attached is the Office of the Inspector General’s (OIG) audit report titled,
Follow-up Audit of the Nuclear Regulatory Commission’s Decommissioning Fund
Program.

The audit disclosed that:

   •   Existing program policies need to be strengthened. The Office of Nuclear
       Reactor Regulation (NRR) cannot verify that there is reasonable
       assurance that there will be adequate funds for decommissioning nuclear
       power plants consistent with prudent business practices. Specifically,
       decommissioning trust fund balances are not verified and the Nuclear
       Regulatory Commission’s (NRC) investment restrictions are limited in
       scope and applicability.

   •   Additional management action is needed on two of four prior OIG audit
       report recommendations regarding quality control and reassessment of
       the NRC formula used to provide decommissioning funding assurance.

Consequently, there is (1) $23.3 billion in decommissioning trust funds at risk,
(2) increased vulnerability to decommission funding shortfalls, and (3) potential
adverse impacts on the reliability of NRR’s assessment of licensee financial
assurance and the amount of funds needed for decommissioning.

If you have any questions, please call me at 415-5915 or Steven Zane at
415-5912.

Attachment: As stated
Electronic Distribution

John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
G. Paul Bollwerk, III, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
William F. Kane, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research,
  State and Compliance Programs, OEDO
Jacqueline E. Silber, Deputy Executive Director for Information Services
   and Administration, and Chief Information Officer, OEDO
William M. Dean, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Michael R. Johnson, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Carl J. Paperiello, Director, Office of Nuclear Regulatory Research
Janet R. Schlueter, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
                   Follow-up Audit of the Nuclear Regulatory Commission’s Decommissioning Fund Program



EXECUTIVE SUMMARY

                   BACKGROUND

                   The Nuclear Regulatory Commission (NRC), Office of Nuclear
                   Reactor Regulation (NRR), provides oversight of licensee
                   decommissioning funding assurance which is intended to provide
                   reasonable assurance that there will be sufficient funds to safely
                   decommission1 the nuclear reactor(s). The oversight is based on a
                   review by NRR of the biennial decommissioning funding status
                   reports submitted by licensees as required by Title 10 of the Code
                   of Federal Regulations (CFR), Part 50.75(f).2 NRR compares
                   licensees’ estimates of the amounts needed to decommission their
                   plants with expected decommissioning costs using NRC’s two-
                   tiered formula3 found in 10 CFR 50.75(c). If a licensee’s estimate
                   meets or exceeds the NRC formula amount, and the projected
                   accumulation of funds as calculated by NRR4 meets or exceeds the
                   NRC formula amount, the NRC concludes that the licensee has
                   reasonable assurance of decommissioning funding capability.

                   A prior Office of Inspector General (OIG) audit of this area
                   contained four recommendations to improve the program. The
                   recommendations related to:

                       •    Quality control,
                       •    Reporting requirements,
                       •    Lessons learned, and
                       •    Reassessing the reasonableness of the NRC two-tiered
                            formula.

                   During this audit, OIG auditors evaluated the reports submitted by
                   licensees in March 2003, on the decommissioning funding status of
                   104 commercial nuclear reactors, for the reporting period ending
                   December 31, 2002. NRR completed their review of these reports




1
  10 CFR 50.2 defines decommissioning as removing a facility or site safely from service and reducing
residual radioactivity to a level that permits release of the property for unrestricted use and termination of the
license, or release of the property under restricted conditions and termination of the license.
2
  10 CFR 50.75(f) requires that licensees submit a decommissioning funding status report every two years,
which must include seven items that are listed in Appendix C. In addition, licensees must submit this report
annually for any plant that is within 5 years of the projected end of its operation or is involved in mergers or
acquisitions.
3
  See Appendix B for a complete description of the formula.
4
  NRR reviews the submitted report and performs several complex calculations to determine whether the
reported balance in the decommissioning trust fund is sufficient to meet the anticipated cost of
decommissioning at the time of permanent cessation of operations.


                                                        i
Follow-up Audit of the Nuclear Regulatory Commission’s Decommissioning Fund Program



in September 2004. In March 2005, licensee’s submitted
decommissioning funding status reports for the period ending
December 31, 2004. NRR was conducting their review of the most
current reports during the time this audit was conducted.
Accordingly, OIG auditors did not evaluate the most current reports.

As of December 31, 2002, the NRC formula projects that
$38.2 billion will be needed for decommissioning the fleet of
operating plants at the time of their permanent shutdown dates.
Licensees reported having approximately $23.3 billion in trust fund
assets for decommissioning as of December 31, 2002.

PURPOSE

The objectives of this audit were to:
   • Identify opportunities for program improvement, and
   • Evaluate implementation of the recommendations made in
      OIG audit report, OIG 99A-16, dated February 1, 2000.

RESULTS IN BRIEF

OIG determined that existing program policies need to be
strengthened. NRR cannot verify that there is reasonable
assurance that there will be adequate funds for decommissioning
nuclear power plants consistent with prudent business practices.
Specifically, decommissioning trust fund balances are not verified
and NRC’s investment restrictions are limited in scope and
applicability.

Furthermore, additional management action is needed on two of
four prior OIG audit report recommendations as a result of
inadequate monitoring/action by management. Opportunities for
improvement continue to exist regarding quality control and
reassessment of the NRC formula used to provide
decommissioning funding assurance.

Consequently, there is (1) $23.3 billion in decommissioning trust
funds at risk, (2) increased vulnerability to decommission funding
shortfalls, and (3) potential adverse impacts on the reliability of
NRR’s assessment of licensee financial assurance and the amount
of funds needed for decommissioning.

Addressing the recommendations in this report will improve the
controls associated with the agency’s decommissioning fund
program.




                                ii
Follow-up Audit of the Nuclear Regulatory Commission’s Decommissioning Fund Program




AGENCY COMMENTS

At the January 17, 2006, exit conference with agency senior
executives, NRC officials generally agreed with the report’s findings
and recommendations and provided comments that they believe
clarify certain sections of the report. In response to those
comments, the report was modified as OIG deemed appropriate.




                                iii
Follow-up Audit of the Nuclear Regulatory Commission’s Decommissioning Fund Program




              [Page intentionally left blank.]




                                iv
        Follow-up Audit of the Nuclear Regulatory Commission’s Decommissioning Fund Program



ABBREVIATIONS AND ACRONYMS

       CFR              Code of Federal Regulations
       EDO              Executive Director for Operations
       FERC             Federal Energy Regulatory Commission
       GAO              Government Accountability Office
       NRC              Nuclear Regulatory Commission
       NRR              Office of Nuclear Reactor Regulation
       OIG              Office of the Inspector General
       PUC              Public Utility Commission
       PSC              Public Service Commission
       SRP              Standard Review Plan




                                        v
Follow-up Audit of the Nuclear Regulatory Commission’s Decommissioning Fund Program




              [Page intentionally left blank.]




                                vi
            Follow-up Audit of the Nuclear Regulatory Commission’s Decommissioning Fund Program



TABLE OF CONTENTS

     EXECUTIVE SUMMARY......................................................................i
     ABBREVIATIONS AND ACRONYMS .................................................v
     I.     BACKGROUND...........................................................................1
     II.    PURPOSE...................................................................................4
     III.   FINDINGS ...................................................................................5
                A.      EXISTING PROGRAM POLICIES NEED TO
                        BE STRENGTHENED ..........................................................5

                B.      ACTION NEEDED ON TWO PRIOR OIG
                        RECOMMENDATIONS .......................................................10

     IV.    CONSOLIDATED LIST OF RECOMMENDATIONS..................15


     APPENDICES
                A.      SCOPE AND METHODOLOGY...................................17

                B.      THE NUCLEAR REGULATORY COMMISSION’S
                        MINIMUM DECOMMISSIONING FUNDING
                        ESTIMATE FORMULA ................................................19

                C.      ITEMS REQUIRED TO BE INCLUDED IN BIENNIAL
                        DECOMMISSIONING FUNDING STATUS
                        REPORTS....................................................................21




                                                 vii
Follow-up Audit of the Nuclear Regulatory Commission’s Decommissioning Fund Program




                    [Page intentionally left blank.]




                               viii
            Follow-up Audit of the Nuclear Regulatory Commission’s Decommissioning Fund Program



I.   BACKGROUND

     Decommissioning Funding Assurance

            NRR provides oversight of licensee decommissioning funding
            assurance which is intended to provide reasonable assurance that
            at the time a plant permanently ceases operations, there will be
            sufficient funds to safely decommission1 the nuclear reactor(s).
            The oversight is based on a review by NRR of the biennial
            decommissioning funding status reports submitted by licensees as
            required by 10 CFR 50.75(f).2 The reports include: licensee




               Trojan's reactor vessel being transported for burial.


            estimates of the amounts needed to decommission their plants; the
            amounts accumulated in the decommissioning trust funds to date;
            and plans to make up the difference between the two, if applicable.
            NRR compares licensees’ estimates of the amounts needed to
            decommission their plants with expected decommissioning costs
            using NRC’s two-tiered formula3 found in 10 CFR 50.75(c). If a
            licensee’s estimate meets or exceeds the NRC formula amount,
            and the projected accumulation of funds as calculated by NRR4
            meets or exceeds the NRC formula amount, the licensee is
            considered to have reasonable assurance of decommissioning
            funding capability.

     Existing Regulations

            Licensees refer to 10 CFR 50.75 for requirements on how to
            provide reasonable assurance to NRC that sufficient funds will be
            available for the decommissioning process. The financial
            assurance standards in 10 CFR 50.75(e) are intended to show how
            certain financing options provide reasonable assurance that
            adequate funds will be available to pay decommissioning costs.




                                                   1
       Follow-up Audit of the Nuclear Regulatory Commission’s Decommissioning Fund Program



       During this audit, OIG auditors evaluated the reports submitted by
       licensees in March 2003, on the decommissioning funding status of
       104 commercial nuclear reactors, for the reporting period ending
       December 31, 2002. NRR completed their review of these reports
       in September 2004. In March 2005, licensee’s submitted
       decommissioning funding status reports for the period ending
       December 31, 2004. NRR was conducting their review of the most
       current reports during the time this audit was conducted.
       Accordingly, OIG auditors did not evaluate the most current reports.

Prior Report Recommendations

       OIG Audit Report, OIG/99A-16, Review of NRC’s Decommissioning
       Funding Program, dated February 1, 2000, contained the following
       four recommendations:

          1. Ensure quality control by having the results of the review of
             the licensees' decommissioning fund status reports
             examined by an individual other than the primary reviewer,
             and by documenting all problems found and tracking actions
             taken to reach resolution.

          2. Implement review procedures consistent with the standard
             review plan (SRP) to ensure all the reporting requirements
             are met and that consistency in the reported data is
             achieved. This should include the identification and
             exclusion of non-radiological costs as specified in the SRP.

          3. Conduct a lessons learned exercise to strengthen and
             enhance the review process.

          4. Evaluate the relationship between formula-based and site-
             specific estimates and consider reassessing the
             reasonableness of NRC’s decommissioning formulas.

Total Dollars Invested for the Decommissioning Funds Program

       OIG’s examination of the March 2003 biennial decommissioning
       funding status report files, that include data for the period ending
       December 31, 2002, determined the total dollars invested in the
       program as follows:




                                       2
                                Follow-up Audit of the Nuclear Regulatory Commission’s Decommissioning Fund Program




                                    Total Investment (Dollars) of Program

                            $40.0
                            $35.0                 $38.2
      Dollars in Billions



                            $30.0
                            $25.0
                            $20.0                                                        $23.3
                            $15.0
                            $10.0
                             $5.0
                             $0.0
                                          Amount Needed                        Licensees' Reported
                                         (Per NRC Formula)                     Trust Fund Assets

                                                     Amounts as of December 31, 2002

                                As of December 31, 2002, $38.2 billion, estimated in 2002 dollars,
                                will be needed for decommissioning, at the time of permanent
                                shutdown, based on the NRC formula. Licensees reported having
                                approximately $23.3 billion in trust fund assets for decommissioning
                                as of December 31, 2002. Accordingly, the licensees have
                                reportedly accumulated approximately 61 percent of the funds that
                                will be needed at the time of decommissioning based on application
                                of the NRC formula. On average, licensees have approximately
                                46 percent5 of the time remaining on their licenses to accumulate
                                the remaining 39 percent of needed decommissioning funds.




5
  18.5 years, on average, is equivalent to 46 percent of time remaining on licenses. This calculation takes
into account eight approved license renewals, as of December 31, 2002, which extend the operating period
from 40 years to 60 years.
                                                                3
          Follow-up Audit of the Nuclear Regulatory Commission’s Decommissioning Fund Program



II.   PURPOSE

          The objectives of this audit were to:

             •    Identify opportunities for program improvement, and

             •    Evaluate implementation of the recommendations made in
                  OIG audit report, OIG 99A-16, dated February 1, 2000.




                                          4
           Follow-up Audit of the Nuclear Regulatory Commission’s Decommissioning Fund Program



III. FINDINGS

           OIG determined that existing program policies need to be
           strengthened and additional management action is needed on two
           of four prior OIG audit report recommendations. Consequently,
           there is (1) $23.3 billion in decommissioning trust funds at risk,
           (2) increased vulnerability to decommission funding shortfalls, and
           (3) potential adverse impacts on the reliability of NRR’s assessment
           of licensee financial assurance and the amount of funds needed for
           decommissioning.

   A.   Existing Program Policies Need to be Strengthened

           NRR cannot verify that there is reasonable assurance that there will
           be adequate funds for decommissioning nuclear power plants
           consistent with prudent business practices. Specifically, NRR relies
           on licensees’ representations without obtaining verification of
           decommissioning trust fund balances and NRC’s investment
           restrictions applicable to decommissioning trust funds are limited in
           scope and applicability. In the exercise of its nuclear power plant
           financial management oversight responsibility, NRR, without
           justification, relies on the actions of the Federal Energy Regulatory
           Commission (FERC) and State Public Utility Commissions/Public
           Service Commissions (PUCs/PSCs). As a result, $23.3 billion in
           decommissioning trust funds are at risk; there is increased
           vulnerability to decommission funding shortfalls; and there is a
           potential adverse impact on NRR’s assessment of licensee
           financial assurance.

           Prudent Business Practices

           Prudent business practices call for the verification of licensee
           reported decommissioning trust fund balances as well as sound
           investment restrictions for decommissioning trust funds.

                   Verification of Trust Fund Balances

           While an independent audit of licensee reported trust fund balances
           would be ideal, it is prudent, at a minimum, to require trustees to
           report the value of decommissioning trust funds directly to NRC.
           This is particularly important in light of the significant dollars
           involved. As of December 31, 2002, licensees reported having
           decommissioning trust funds valued at approximately $23.3 billion.
           This amount is expected to grow as licensees continue to add
           money to the trust funds and as the funds increase in value as a
           result of interest, dividends and appreciation.


                                           5
Follow-up Audit of the Nuclear Regulatory Commission’s Decommissioning Fund Program



        Sound Investment Restrictions

It is prudent to promulgate sound investment restrictions applicable
to all decommissioning trust funds to prevent situations where the
amounts accumulated could diminish or be subject to undue risk.
Examples of sound investment restrictions include:

   •    Trustees should not be permitted to invest in junk bonds,
        and
   •    Trustees should be required to follow prudent diversification
        concepts to ensure that not more than a certain reasonable
        percentage of funds are invested in any one company or any
        one industry.

Recent major financial accounting scandals, such as Enron, are
proof that the value of a single stock can dramatically decline
quickly.

Financial Assurance is Inadequate

NRR cannot verify that there is reasonable assurance that there will
be adequate funds for decommissioning nuclear power plants
consistent with prudent business practices. Decommissioning trust
fund balances are not verified and NRC’s investment restrictions
are limited in scope and applicability.

        Decommissioning Trust Fund Balances Not Verified

NRR determines financial assurance without obtaining verification
from a trustee that the reported decommissioning trust fund
balance is correct. NRR merely relies on licensee representations
for the amount accumulated in decommissioning trust funds based
on 10 CFR 50.9 which states:

              Information provided to the Commission by an applicant
              for a license or by a licensee or information required by
              statute or by the Commission's regulations, orders, or
              license conditions to be maintained by the applicant or
              the licensee shall be complete and accurate in all
              material respects.

        NRC’s Investment Restrictions are Limited in Scope and
        Applicability

NRC’s investment restrictions apply to roughly one-third of its
licensed nuclear power plants. These investment restrictions are
limited in scope as they do not specifically cover such things as
investment in junk bonds or the percentage of funds that can be
                                6
                  Follow-up Audit of the Nuclear Regulatory Commission’s Decommissioning Fund Program



                 prudently invested in any one company or industry. The restrictions
                 merely provide that the trustee is prohibited from investing the
                 funds in: (1) securities or other obligations of the licensee, (2) any
                 other owner or operator of a nuclear power reactor or their affiliates,
                 subsidiaries, successors or assigns, or (3) a mutual fund where at
                 least 50 percent of the fund is invested in the securities of a
                 licensee or parent company whose subsidiary is an owner or
                 operator of a foreign or domestic nuclear power plant.

                 Reliance on Federal Energy Regulatory Commission and State
                 Public Utility Commissions/Public Service Commissions Not
                 Supported

                 NRC staff could not provide a written analysis of specific state PUC
                 or FERC requirements upon which the NRC bases its reliance for
                 funding assurance

                 Federal Energy Regulatory Commission

                 While NRR officials stated that they rely on FERC oversight of utility
                 financial management, they have not undertaken any systematic
                 review of FERC regulatory practices to establish the basis for this
                 reliance. FERC officials, when contacted by OIG, stated that their
                 fundamental mandate is to ensure that consumer charges due to
                 decommissioning costs are reflected in the amounts actually
                 deposited into the decommissioning trust funds.

                 Unlike NRC’s regulations, FERC’s regulations require utilities to
                 annually submit an original copy of the financial report furnished by
                 the decommissioning trust fund’s trustee, as well as any applicable
                 audit opinions by independent public accountants. These reports
                 are posted on the FERC website and are accessible to the general
                 public. FERC’s regulations also require that the financial report be
                 mailed to anyone who requests it. NRR does not refer to the FERC
                 website for the financial reports and audit opinions, nor do they
                 request any of these reports by mail. FERC has oversight for
                 approximately half of the nuclear plants that NRR receives a
                 biennial decommissioning status report from.

                 FERC’s regulations also require that the trust fund’s investment
                 manager exercise the standard of care that a prudent investor
                 would use in the same circumstances.6 While this referenced
                 document provides general investment guidance, it does not



6
   18 USC 35.32 refers to the Restatement of the Law (Third), Trusts 227, including general comments and
reporter’s notes, pages 8-101, St. Paul, MN: American Law Institute Publishers, (1992), ISBN 0-314-84246-
2, for the description of a “prudent investor.”
                                                    7
                Follow-up Audit of the Nuclear Regulatory Commission’s Decommissioning Fund Program



                promulgate any specific investment restrictions limiting investments
                in a specific company or industry to promote sound diversification
                principles.

                         State Public Utility Commissions/Public Service
                         Commissions

                While NRR relies on state PUCs/PSCs oversight of utility financial
                management, NRR officials have not undertaken any systematic
                review of state PUC/PSC regulatory schemes to establish a basis
                for such reliance.

                The OIG reviewed PUC/PSC legal and regulatory frameworks in six
                states with varying numbers of nuclear units. The states were
                selected to be representative of the range of numbers of nuclear
                units in all states.7 The results are shown below:


                                               Routine                           Recent Public Utility
                          Specific Statute  Requirement to                      Commission Action or
                 Nuclear    Addressing     Review or Report                          Report on
    State         Units  Decommissioninga Decommissioning                         Decommissioning
Iowa                 1      No                        No                       No
Kansas               1      No                        Nob                      Yesd
Alabama              5      No                        Noc                      Yesd
Florida              5      No                        Yes – routinely          Yesd
                                                      report detailed
                                                      information including
                                                      trust fund information
Illinois            11      No                        No                       Yesd
Pennsylvania         9      No                        No                       No

a
  State PUC statutory frameworks address recovery of costs of service in general; these statutes
do not specifically address decommissioning funding assurance.
b
  Internet search did not identify specific regulations for electricity for Kansas Corporation
Commission. There were regulations available for oil and gas exploration and gathering.
c
   “Electricity Section” routinely reviews decommissioning information according to the Alabama
PUC website, but there does not appear to be any regulatory or legal requirement for this review.
d
   Review at request of utility.

                The OIG identified only one state in which there was a specific
                routine regulatory requirement to review decommissioning
                information. The Florida Public Service Commission, promulgated
                regulation 25-6.04365 “Nuclear Decommissioning” for this purpose.
                The stated intent of this regulation is a demonstration that sufficient
                funds are on hand at the time of decommissioning to meet all
                required expenses. This regulation requires filing a site specific
                decommissioning study and requires explicit approval of accrual

7
 The NRC Information Digest 2005-2006 Edition, NUREG-1350, Volume 17, July 2005, Appendix A
contains a listing of the nuclear plants including the location within each state.
                                                8
Follow-up Audit of the Nuclear Regulatory Commission’s Decommissioning Fund Program



methods. The regulation also indicates that the Florida PSC will
evaluate each utility’s investment performance to determine
whether the decommissioning trusts fund earned at least the rate of
inflation.

The OIG review did not identify any regulatory requirement for
routine reporting or reviewing of decommissioning information in
the remaining five states. Four of six states had performed some
type of decommissioning fund reviews in response to utility
requests. The OIG could not find any records of decommissioning
funding review for two of the six states. The Alabama PUC website
indicates that PUC staff conducts and documents routine audits of
decommissioning costs. There does not appear to be any
regulatory or legal requirement for this review.

OIG’s review was not based on a statistical sample; therefore, a
general conclusion cannot be made regarding other state
PUC/PSC decommissioning review frameworks. However, the OIG
found that only one of the six states examined has a regulatory
requirement for a routine assessment of decommissioning trust
fund performance. In addition, the NRR staff has no documented
review supporting their reliance on state PUCs/PSCs. These
factors bring into question the Agency’s reliance on state
PUCs/PSCs for financial assurance of decommissioning.

Consequences of Inadequate Financial Assurance

Without verification of the value of the decommissioning trust funds,
and absent required sound investment restrictions, $23.3 billion in
decommissioning trust funds are at risk, there is increased
vulnerability to decommission funding shortfalls, and there is a
potential adverse impact on NRR’s assessment of licensee
financial assurance. At the exit conference the Executive Director
for Operations stated that the recommended course of action
requires Commission approval.

Recommendations

OIG recommends the Executive Director for Operations (EDO)
seek, and the Commission provide, direction whether to:

1. Require verification of decommissioning trust fund balances
   from trustees.

2. Require specific prudent investment restrictions for
   decommissioning trust funds.



                                9
        Follow-up Audit of the Nuclear Regulatory Commission’s Decommissioning Fund Program



B.   Action Needed on Two Prior OIG Recommendations

       NRC did not fully implement its planned corrective actions
       regarding two prior OIG report recommendations as a result of
       inadequate monitoring/action by management. Opportunities for
       improvement continue to exist regarding quality control and
       reassessment of the NRC formula used to provide
       decommissioning funding assurance. Accordingly, there is
       increased vulnerability to decommission funding shortfalls and
       potential adverse impacts on the reliability of NRR’s assessment of
       licensee financial assurance and the amount of funds needed for
       decommissioning.

       Quality Control

       While NRC did not adequately implement its June 2001 corrective
       action plan regarding quality control, it recently issued an office
       instruction which includes updated quality control
       policy/procedures. The new office instruction and documented
       practices do not fully comply with the United States Government
       Accountability Office (GAO), Standards for Internal Control in the
       Federal Government, GAO/AIMD-00-21.3.1, dated
       November 1999, regarding timeliness and documentation. Quality
       control deficiencies can impair the usefulness of the financial
       assurance report to the Commissioners.

                NRC Corrective Action Plan

       In the June 2001 memorandum, the NRC described a corrective
       action plan for establishing quality control for the review of licensee
       submitted biennial decommissioning funding status reports. The
       corrective action plan included such things as use of a data excerpt
       sheet to document primary and quality control reviews with
       signature lines for each reviewer, as well as various actions by the
       first-line supervisor. According to the plan, the first-line supervisor
       plays a vital role in ensuring that the primary and quality control
       reviews are performed correctly, are appropriately documented,
       and that the report to the Commissioners is reliable.

                Inadequate Implementation of Corrective Action Plan

       Insufficient management monitoring resulted in inadequate
       implementation of the corrective action plan. Portions of the
       corrective action plan were not implemented and quality assurance
       was not performed timely.



                                       10
Follow-up Audit of the Nuclear Regulatory Commission’s Decommissioning Fund Program



                Portions of Corrective Action Plan Not Implemented

OIG examined the 2003 biennial decommissioning funding status
report files and determined that while NRC did establish a quality
control process, it was not fully implemented according to the
corrective action plan described in the June 2001 memorandum.
Specifically, NRR did not use the data excerpt sheet described in,
and attached as an appendix to, the June 2001 memorandum. The
data sheets that NRR did use did not contain signature lines and
were hard to read and understand. OIG auditors could not clearly
distinguish whether the calculations were that of the primary
reviewer, the quality control reviewer, or someone else. It was also
not clear which numbers were used to determine financial
assurance, if there were problems identified with the licensees’
reports, and/or how those problems were resolved. In addition,
there was no evidence of first-line supervisory involvement during
the entire process and there was no documented summary of the
results of the quality control review. The GAO Standards for
Internal Control in the Federal Government call for monitoring by
management and clear documentation of internal control and
significant events.

                Quality Assurance Not Timely

NRR’s quality control review of the 2003 biennial decommissioning
funding status reports was conducted approximately 7 months after
the report on the status of licensee decommissioning funds was
issued to the Commissioners. To be useful, quality control must be
performed prior to, rather than after, the report to the
Commissioners is issued. Furthermore, NRR did not issue a report
summarizing the results of its quality control review. The GAO
Standards for Internal Control in the Federal Government
emphasize the importance of timely communications.

        LIC-205

NRR management issued an office procedure, LIC-205,
“Procedures for NRC’s Independent Analysis of Decommissioning
Funding Assurance for Operating Nuclear Power Reactors,” dated
June 29, 2005. LIC-205 describes the procedures to perform a
review of licensees’ biennial decommissioning funding status
reports, as well as the procedures to conduct and report on the
quality control review. While this is a positive step, LIC-205 does
not (1) prescribe a timeframe within which quality control
procedures are to be performed and (2) require separate
documentation of the quality control review. Quality control
deficiencies can impair the usefulness of the financial assurance
report to the Commissioners.
                               11
                 Follow-up Audit of the Nuclear Regulatory Commission’s Decommissioning Fund Program



                 Reassessment of the NRC Formula

                 OIG’s report of February 2000 addressed the agency developed
                 formulas for estimating the minimum amounts required to
                 demonstrate reasonable assurance of funds for decommissioning.
                 When compared to site-specific estimates developed at that time,
                 OIG found that the site-specific estimates exceeded the formula
                 based estimates. NRC deferred implementation of corrective
                 action to reassess the reasonableness of its formula used to
                 provide decommissioning funding assurance. The formula that was
                 established almost 20 years ago is comprised of two tiers. The first
                 tier computes the minimum decommissioning cost in 1986 dollars.
                 The second tier of the formula adjusts the amount computed in the
                 first tier, from 1986 dollars to current year dollars, based on three
                 different escalation factors. Despite the age of the formula, the
                 availability of additional relevant data, and continuing evidence
                 showing that site-specific estimates routinely exceed formula
                 amounts, the formula has not been reassessed in the last 10 years.
                 Consequently, there is increased vulnerability to decommission
                 funding shortfalls and potential adverse impacts on the reliability of
                 NRR’s assessment of licensee financial assurance and the amount
                 of funds needed for decommissioning.

                         Relevant Criteria

                 The calculation in 10 CFR 50.75(c), addressing decommissioning
                 planning, is intended to provide reasonable assurance of a
                 minimum decommissioning cost for operating power reactors at the
                 time of permanent cessation of operations.

                 The GAO Standards for Internal Control in the Federal Government
                 require management to identify and analyze relevant risks and
                 determine their possible effect. These standards also require
                 monitoring to ensure that corrective actions are promptly taken.

                         Prior Validation of NRC’s Formula

                 In 1995 the agency performed rigorous evaluations8 that provided
                 reasonable assurance that the regulation’s formulation was
                 conservative relative to hypothetical cost evaluation models. These
                 evaluations contain detailed breakdowns of cost factors associated
                 with the decommissioning of two actual nuclear facilities. For



8
 Revised Analysis of Decommissioning for the Reference Boiling Water Reactor Power Station Vol. 1 Main
Report and Vol.2 Appendices, NUREG/CR 6174 (1995) and Revised Analysis of Decommissioning of the
Reference Pressurized Water Reactor Power Station Vol. 1 Main Report and Vol. 2 Appendices,
NUREG/CR 5884 (1995).
                                                  12
                    Follow-up Audit of the Nuclear Regulatory Commission’s Decommissioning Fund Program



                    example, waste transportation costs contained in NUREG/CR-6174
                    included actual route mileage values, calculations of cargo weights,
                    specific cask designs and actual tariff values from a transport
                    carrier.

                    Although these evaluations were rigorous, they are approximately
                    ten years old. In the last ten years actual decommissioning costs
                    data has accumulated and should be available for assessing these
                    hypothetical models. Detailed cost factors embedded in the
                    evaluations could also have changed since the 1995 evaluations.
                    The NRC staff has no documented evaluation substantiating the
                    current validity of the conclusions reached in 1995 in
                    NUREG/CR 6174 and NUREG/CR 5884.

                             Site-Specific Estimates Consistently Higher than NRC
                             Formula Estimates


                       Comparison of Site-Specific vs. NRC Formula Estimates



                         $7.0                                                        $6.1
                         $6.0                  $5.2                                             $5.2
                         $5.0
                                                           $3.6
          Dollars in $4.0
           Billions $3.0

                         $2.0
                         $1.0
                         $0.0
                                         1998 (13 Plants)                      2002 (13 Plants)


                            Site-Specific Estimate              NRC Formula Estimate

                    The prior OIG audit (February 2000) contained site-specific
                    estimates submitted for 13 plants9, that were approximately
                    44 percent higher than the minimum decommissioning cost
                    estimates calculated using the NRC formula. OIG’s current
                    analysis of the December 31, 2002 data, concluded that the site-
                    specific estimates submitted for 13 plants9 were approximately
                    16 percent higher than the minimum decommissioning cost

9
    The site-specific estimates submitted by licensees included radiological decommissioning costs only.
                                                      13
Follow-up Audit of the Nuclear Regulatory Commission’s Decommissioning Fund Program



estimates calculated using the NRC formula. The results of these
analyses is cause for continuing concern that the NRC formula
requires updating and, if not revisited, could result in significant
funding shortfalls at the time of decommissioning. It is prudent to
reevaluate and adjust the NRC formula now to prevent possible
significant decommission funding shortfalls in the future.

        Consequences of Delayed Implementation of Prior Report
        Recommendation

As a result of management’s delay in addressing OIG’s earlier
recommendation, significant vulnerabilities remain for
decommission funding shortfalls, and potential adverse impacts on
the reliability of NRR’s assessment of licensee financial assurance
and the amount of funds needed for decommissioning.

Recommendations

OIG recommends that the EDO:

3. Prescribe and implement a timeframe within which quality
   assurance will be performed.

4. Clearly document quality assurance work performed.

5. Update NRC’s decommissioning formula considering the
   relationship between formula based and site-specific estimates.




                               14
          Follow-up Audit of the Nuclear Regulatory Commission’s Decommissioning Fund Program



IV.   CONSOLIDATED LIST OF RECOMMENDATIONS

          OIG recommends that the EDO seek, and the Commission provide,
          direction whether to:

          1.     Require verification of decommissioning trust fund balances
                 from trustees.

          2.     Require specific prudent investment restrictions for
                 decommissioning trust funds.

          OIG recommends that the EDO:

          3.     Prescribe and implement a timeframe within which quality
                 assurance will be performed.

          4.     Clearly document quality assurance work performed.

          5.     Update NRC’s decommissioning formula considering the
                 relationship between formula based and site-specific
                 estimates.




                                         15
Follow-up Audit of the Nuclear Regulatory Commission’s Decommissioning Fund Program




                     [Page intentionally left blank.]




                               16
       Follow-up Audit of the Nuclear Regulatory Commission’s Decommissioning Fund Program


                                                                              Appendix A
SCOPE AND METHODOLOGY

       To accomplish the audit objectives, the OIG reviewed and analyzed
       pertinent laws, regulations, authoritative guidance and prior
       relevant OIG and GAO reports. In addition, OIG analyzed
       decommissioning laws and regulations for six states. OIG
       conducted interviews with selected NRC officials to:

          1. Gain an understanding of the agency’s decommissioning
             funding process,

          2. Determine current issues, problems, known deficiencies, and

          3. Assess management controls.

       OIG interviewed officials from FERC and GAO to obtain clarification
       of their roles, responsibilities, and perspectives regarding
       decommissioning funding.

       OIG reviewed and analyzed the decommissioning funding status
       reports submitted by licensees in March 2003, for the reporting
       period ending December 31, 2002, in order to:

          1. Determine the magnitude of the program,

          2. Evaluate NRC’s implementation of agreed-to actions in
             response to recommendations from a prior OIG audit report,

          3. Verify, on a test basis, NRC’s computations of the minimum
             decommissioning cost estimate using the NRC formula, and

          4. Determine the difference between formula based and site-
             specific estimates.

       OIG conducted this audit in accordance with Generally Accepted
       Government Auditing Standards from January 2005 through
       October 2005.

       The major contributors to this report were Steven Zane, Team
       Leader; Michael Cash, Technical Advisor; and Terri Cooper, Senior
       Auditor.




                                      17
Follow-up Audit of the Nuclear Regulatory Commission’s Decommissioning Fund Program




                       [Page intentionally left blank.]




                               18
                  Follow-up Audit of the Nuclear Regulatory Commission’s Decommissioning Fund Program


                                                                                          Appendix B


THE NUCLEAR REGULATORY COMMISSION’S MINIMUM
DECOMMISSIONING FUNDING ESTIMATE FORMULA

                  The complete two-tiered NRC minimum decommissioning funding
                  estimate formula provided in 10 CFR 50.75(c) is shown below:

                  (c) Table of minimum amounts (January 1986 dollars) required to demonstrate
                  reasonable assurance of funds for decommissioning by reactor type and power
                  level, P (in MWt); adjustment factor.1


                                                                                            Millions
(1)(i) For a PWR: greater than or equal to 3400 MWt                                            $105
                      between 1200 Mwt and 3400 Mwt (For a PWR of less than
                      1200 Mwt, use P=1200 Mwt)                                     $(75+0.0088P)
(ii) For a BWR:       greater than or equal to 3400 MWt                                        $135
                      between 1200 Mwt and 3400 Mwt (For a BWR of less than
                      1200 Mwt, use P=1200 MWt)                                     $(104+0.009P)


                  (2) An adjustment factor at least equal to 0.65 L + 0.13 E + 0.22 B is to be
                  used where L and E are escalation factors for labor and energy, respectively,
                  and are to be taken from regional data of U.S. Department of Labor Bureau of
                  Labor Statistics and B is an escalation factor for waste burial and is to be taken
                  from NRC report NUREG-1307, "Report on Waste Burial Charges."

                  1
                    Amounts are based on activities related to the definition of "Decommission"
                  in § 50.2 of this part and do not include the cost of removal and disposal of
                  spent fuel or of nonradioactive structures and materials beyond that necessary
                  to terminate the license.



                  The first tier of the formula computes the minimum
                  decommissioning amount, in 1986 dollars, that will be needed at
                  the time of permanent cessation of operations. The first tier is
                  based on the reactor type and power level of the reactors.

                  The second tier of the formula adjusts the amount computed in the
                  first tier, from 1986 dollars to current year dollars, based on
                  escalation factors of labor, energy, and burial. The factors for labor
                  and energy are found in regional data of U.S. Department of Labor
                  Bureau of Labor Statistics, and the factor for burial is found in
                  NRC’s NUREG-1307, “Report on Waste Burial Charges,” which is
                  updated approximately every two years.




                                                 19
Follow-up Audit of the Nuclear Regulatory Commission’s Decommissioning Fund Program




              [Page intentionally left blank.]




                               20
        Follow-up Audit of the Nuclear Regulatory Commission’s Decommissioning Fund Program


                                                                               Appendix C


ITEMS REQUIRED TO BE INCLUDED IN BIENNIAL
DECOMMISSIONING FUNDING STATUS REPORTS

        The following seven items are required by 10 CFR 50.75(f) to be
        included in the biennial decommissioning funding status reports
        submitted to NRC by licensees:

        1.     The amount of decommissioning funds estimated to be
               required pursuant to 10 CFR 50.75(b) and (c);

        2.      The amount accumulated to the end of the calendar year
                preceding the date of the report;

        3.     A schedule of the annual amounts remaining to be collected;

        4.     The assumptions used regarding rates of escalation in
               decommissioning costs, rates of earnings on
               decommissioning funds, and rates of other factors used in
               funding projections;

        5.     Any contracts upon which the licensee is relying pursuant to
               paragraph (e)(1)(v) of this section;

        6.     Any modifications occurring to a licensee's current method of
               providing financial assurance since the last submitted report;
               and

        7.     Any material changes to trust agreements.




                                       21
